STATEMENT OF SERVICE
Case Number: 19-1135
Case Title:

Dignity Health d/b/a Mercy San Juan Medical Center v.
Minton

Type of Document: Letter Brief of Respondent Evan Minton in Response to
Supplemental Brief of Petitioner
Date documents filed via the U.S. Supreme Court’s electronic filing system:
June 22, 2021
Date documents emailed to the Court, each counsel of record for parties to the
case, and counsel for amici curiae:
June 22, 2021
Date documents sent via overnight Federal Express to the Court and each counsel
of record for parties to the case:
June 22, 2021
Contact information for individuals served:
Jeffrey Matthew Harris
Consovoy McCarthy PLLC
1600 Wilson Boulevard, Suite 700
Arlington, VA 22209
(202) 321-4120
jeff@consovoymccarthy.com
Harvey Rochman
Barry Landsberg
Joanna McCallum
Craig Rutenberg
Manatt, Phelps & Phillips, LLP
2049 Century Park East, Suite 1700
Los Angeles, CA 90067
(310) 312-4162
hrochman@manatt.com
blandsberg@manatt.com
jmccallum@manatt.com
crutenberg@manatt.com
Counsel for Petitioner
1

John Bursch
Alliance Defending Freedom
440 First Street NW, Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@ADFlegal.org
Christopher Schandevel
Alliance Defending Freedom
20116 Ashbrook Place, Suite 250
Ashburn, VA 20147
(571) 707-4655
cschandevel@ADFlegal.org
Counsel for Amici Curiae Catholic Medical Association & National Catholic
Bioethics Center
Howard Slugh
2400 Virginia Avenue NW, Apt. C619
(954) 328-9461
hslugh@jclrl.org, hslugh1@gmail.com
Gregory Dolin
University of Baltimore School of Law
1420 N. Charles Street
Baltimore, MD 21201
(410) 837-4610
gdolin@ubalt.edu
Counsel for Amicus Curiae Jewish

Coalition

for

Religious

Anthony T. Caso
Claremont Institute’s Center for Constitutional Jurisprudence
c/o Dale E. Fowler School of Law
Chapman University
One University Drive
Orange, CA 92866
(877) 855-3330
caso@chapman.edu
Counsel for Amicus Curiae Center for Constitutional Jurisprudence
Jeffry A. Miller
Lann G. McIntyre
Lewis Brisbois Bisgaard & Smith LLP
701 B Street, Suite 1900
San Diego CA 92101
2

Liberty

(619) 233-1006
jeff.miller@lewisbrisbois.com
lann.mcintyre@lewisbrisbois.com
Counsel for Amicus Curiae Providence St. Joseph Health
Mark E. Chopko
Stradley Ronon Stevens & Young LLP
2000 K. Street, NW, Suite 700
Washington, DC 20006
(202) 822-9611
mchopko@stradley.com
Counsel for Amici Curiae Catholic Health Association of the United States and
Alliance for Catholic Health Care
s/Amanda C. Goad
Amanda C. Goad
American Civil Liberties Union Foundation
of Southern California
1313 West 8th Street
Los Angeles, CA 90017
(213) 977-9500
agoad@aclusocal.org
Counsel of Record for
Respondent Evan Minton

3

